App.la
PER CURIAM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
(FEBRUARY 27, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
BENJAMIN TAGGER,
Plaintiff-Appellant,
v.
STRAUSS GROUP LTD.,
Defendant-Appellee,
SABRA DIPPING CO., LLC.,
Defendant.
No. 18-3189
Before: KEARSE, CALABRESI,
and POOLER, Circuit Judges.
PER CURIAM.
Appeal from United States District Court for the
Eastern District of New York (Cogan, J.) dismissing
the complaint for lack of subject matter jurisdiction.
We. hold that 28 U.S.C. § 1332(a)(2) does not confer
diversity jurisdiction where a permanent resident
alien sues a non-resident alien, and that the 1951

App.2a

Treaty of Friendship, Commerce and Navigation (“FCN
Treaty”) between the United States and Israel does
not otherwise confer federal jurisdiction in this lawsuit.
Appellant Benjamin Tagger, pro se, sued the
Strauss Group Limited (“Strauss”) for various common
law contract and tort claims, alleging that Strauss
falsely brought legal action against him in Israel
which caused him to be prohibited from leaving Israel.
Tagger premised federal jurisdiction on diversity of
citizenship pursuant to 28 U.S.C. § 1332(a). Although a
. citizen of Israel, Tagger lives in Brooklyn as a lawful
permanent resident, and Strauss is an Israeli corpora­
tion with its headquarters there. Strauss moved to
dismiss the complaint for, inter alia, lack of subject
matter jurisdiction and under forum non conveniens.
The district court granted the motion to dismiss,
reasoning that Tagger’s permanent resident status
did not authorize him to be considered a citizen of New
York for diversity purposes when the defendant was
also an alien, and that Israeli courts were a more
appropriate forum in which to litigate the case.
We review factual findings in dismissals for lack
of subject matter jurisdiction for clear error and legal
conclusions de novo. Makarova v. United States, 201
F.3d 110, 113 (2d Cir. 2000). Under 28 U.S.C. § 1332,
federal courts have jurisdiction to hear cases between
diverse parties “where the matter in controversy
exceeds the sum or value of $75,000[.]” 28 U.S.C.
§ 1332(a). Section 1332 requires “complete diversity,”
meaning that “all plaintiffs must be citizens of states
diverse from those of all defendants.” Pa. Pub. Sch.
Emps.’ Retirement Sys. v. Morgan Stanley & Co., Inc.,
772 F.3d 111, 118 (2d Cir. 2014). Diverse parties
consist of citizens of different states or “citizens of a

App.3a

State and citizens or subjects of a foreign state [.]” 28
U.S.C. § 1332(a)(2). Generally, “[a]n individual’s
citizenship, within the meaning of the diversity statute,
is determined by his domicile[.]” Van Buskirk v.
United Grp. of Cos., Inc., 935 F.3d 49, 53 (2d Cir. 2019)
(internal quotation marks omitted). Here, it is
undisputed that Strauss, an Israeli corporation with
its headquarters in Petach Tivka, is a foreign party for
the purposes of diversity. See 28 U.S.C. § 1332(c)(1). The
issue then is whether Tagger, an Israeli citizen and
permanent resident in the United States domiciled in
New York, is a “citizen” of New York for diversity pur­
poses.
We conclude that Tagger is an alien for the pur­
poses of diversity jurisdiction. As the district court
discussed, section 1332 was amended in 1988 to state
that “an alien admitted to the United States for
permanent residence shall be deemed a citizen of the
State in which such alien is domiciled” (the “deeming
clause”). Pub. L. No. 100-702, § 203(a), 102 Stat. 4642,
4646 (1988). This created disagreement in the federal
courts with respect to whether permanent resident
aliens, like Tagger, would be considered aliens when
suing other aliens. Compare Singh v. Daimler-Benz
AG, 9 F.3d 303, 306-12 (3d Cir. 1993) with Saadeh v.
Farouki, 107 F.3d 52, 60-61 (D.C. Cir. 1997). But in
2011, section 1332 was amended as a part of the Fed­
eral Courts Jurisdiction and Venue Clarification Act
to remove the “deeming clause” and to amend section
1332(a)(2) to state that jurisdiction existed in suits
between “citizens of a State and citizens or subjects of
a foreign state, except that the district courts shall not
have original jurisdiction under this subsection of an

App.4a

action between citizens of a State and citizens or sub­
jects of a foreign state who are lawfully admitted for
permanent residence in the United States and are
domiciled in the same State.” Pub. L. No. 112-63,
§ 101, 125 Stat. 758 (2011); see also H. Rep. No. 11210, at 7 (2011), reprinted in 2011 U.S.C.C.A.N. 576,
580 (noting that as amended, the section “would pro­
vide that the district courts shall not have diversity of
citizenship jurisdiction under paragraph 1332(a)(2) of
a claim between a citizen of a state and a citizen or
subject of a foreign state admitted to the United
States for permanent residence and domiciled in the
same state”). The legislative history of this amend­
ment shows that Congress intended to address the
constitutional problems posed by the deeming clause.
See U.S. Const, art. Ill, § 2, cl. 1 (extending judicial
power to controversies “between Citizens of different
States .. . and between a State, or the Citizens thereof,
and foreign States, Citizens or Subjects”). The House
Report accompanying the 2011 bill stated that the
amendment was intended to ensure that permanent
resident aliens “would no longer be deemed to be U.S.
citizens for purposes of diversity jurisdiction, thereby
avoiding the possibly anomalous results” with respect
to the 1988 language. H.R. Rep. No. 112-10, at *7
(2011), reprinted in 2011 U.S.C.C.A.N. 576 (Leg. Hist.).
Accordingly, because federal courts do not have
diversity jurisdiction over lawsuits between two foreign
parties, we conclude that section 1332(a)(2) does not
give the district court jurisdiction over a suit by a
permanent resident against a non-resident alien.
Under section 1332, both Tagger and Strauss are
considered aliens and therefore are not diverse. See

App.5a

Univ. Licensing Corp. v. Paola del Lungo S.p.A., 293
F.3d 579, 581 (2d Cir. 2002).
Tagger does not challenge the district court’s
interpretation of section 1332, but rather argues that
the 1951 Treaty of Friendship, Commerce and
Navigation (“FCN Treaty”) between the United States
and Israel provides him with jurisdiction under its
“access to courts” provisions. This argument is
meritless. The treaty provides that “[nationals [of
either the United States and Israel] . . . shall be
accorded national treatment and most-favored-nation
treatment with respect to access to the courts of
justice and to administrative tribunals and agencies
within the territories of the other Party, in all degrees
of jurisdiction, both in pursuit and in defense of their
rights.” Treaty of Friendship, Commerce and Nav­
igation, Israel-U.S., art. V(l), Aug. 23, 1951, 5 U.S.T.
550.
We have previously commented that these types
of “access” provisions of international commercial
treaties were “intended to guarantee treaty nationals
equal treatment with respect to procedural matters
like filing fees, the employment of lawyers, legal aid,
security for costs and judgment, and so forth.” Blanco
v. United States, 775 F.2d 53, 62 (2d Cir. 1985). The
terms “national treatment” and “most-favored-nation
treatment” also do not offer Tagger any relief. The
Supreme Court has stated that “national treatment”
means nothing more than offering foreign nationals
“equal treatment” with domestic nationals. See
Sumitomo ShojiAm., Inc. v. Avagliano, 457 U.S. 176,
188 n.18 (1982). Similarly, “most-favored-nation treat­
ment means treatment no less favorable than that
accorded to nationals or companies of any third

App.6a

country.” Id. Therefore, the access provision of the
Israel-U.S. FCN Treaty does not offer Tagger any
more substantive rights than any U.S. citizen would
be entitled. Tagger is still required to show that there
is complete diversity between the parties, just like any
U.S. citizen would. Because there is no complete
diversity, the district court properly determined that
it lacked subject matter jurisdiction. See Pa. Pub. Sch.
Emps.’RetirementSys., 772 F.3d at 118.
CONCLUSION
For the reasons discussed above, we hold that
section 1332(a)(2) does not give the district court juris­
diction over a suit by a permanent resident alien
against a non-resident alien, and that the Israel-U.S.
FCN Treaty does not otherwise confer federal jurisdic­
tion to Tagger’s claims. Accordingly, the judgment of
the district court is hereby AFFIRMED.

App.7a
MEMORANDUM DECISION AND ORDER
OF THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NEW YORK
(SEPTEMBER 12, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
BENJAMIN TAGGER,
Plaintiff,
-againstTHE STRAUSS GROUP LTD.,
Defendant.
No. 18-cv-2923 (BMC)
Before: Brian M. COGAN, United States District Judge.
CO GAN, District Judge.
Plaintiff pro se brings this action arising out of
an April 15, 1999 settlement agreement executed in
Tel Aviv, Israel between plaintiff and defendant’s
predecessor-in-interest concerning the foreclosure on
a parcel of property located in Israel. Plaintiff claims
that this Court has jurisdiction under 28 U.S.C.
§ 1332(a). Defendant moves to dismiss the complaint
for, among other reasons, a lack of diversity jurisdiction
and forum non conveniens. For the reasons that follow,
defendant’s motion is granted.

App.8a

BACKGROUND
Plaintiff is an Israeli citizen. 1 During all relevant
times, plaintiff lived in either Israel, Turkey, or the
United States.2 Plaintiff is currently a lawful
permanent resident of the United States and is
domiciled in New York.3 Defendant is an Israeli
company that develops and sells food and beverage
products internationally, including in the United
States through its joint venture with PepsiCo Inc.4

1 Although plaintiff claims that he “stopped being a legal resident
of Israel in 1971,” and that Israel considers him a “foreign resident
who lives in Turkey,” his United States Permanent Resident card
provides that he was born in Israel. In addition, defendant has
provided a copy of plaintiff s Israeli passport, which expires in
2019.
2 The dates during which plaintiff lived in Israel, Turkey, and
the United States are not clear from the complaint. It appears
that plaintiff moved from Israel to the United States around
1971, relocated to Turkey in 1993, returned to Israel for a visit
in 2013, and then went back to the United States.
3 Plaintiff s Permanent Resident card indicates that he has been
a resident of the United States since March 21, 1972.
4 Defendant attaches an affidavit to its reply in support of its
motion to dismiss, and explains that defendant is not registered
to do business in New York; does not own, use, or possess real
property in New York; does not maintain any offices in New
York; nor does it have any employees or agents in New York.
Defendant also explains that it entered into a joint venture with
PepsiCo Inc., whereby each entity indirectly owns a 50% interest
in Sabra Dipping Company LLC, which produces and sells
hummus and other spreads. Sabra’s headquarters are located in
White Plains, New York, but Sabra is not a subsidiary of defend­
ant and defendant does not control it. Plaintiffs original com­
plaint asserted a claim against Sabra, but he withdrew it in his
amended complaint.

App.9a

Defendant’s headquarters and principal place of busi­
ness is located in Israel.
On April 15, 1999, plaintiff and defendant’s
predecessor-in-interest entered into a settlement
agreement in Tel Aviv concerning the foreclosure of
property located in Israel. Under the terms of the
agreement, plaintiff (as the debtor) was to pay an
amount equal to U.S. $85,000. Plaintiff also signed a
bank guarantee for $25,000, secured by property
owned by plaintiffs wife. In consideration, defendant’s
predecessor-in-interest requested that a trustee cancel
and vacate the foreclosure on the property, which the
trustee could grant after all of the necessary pre­
conditions for payment were met. The settlement
agreement also provided that a “stop-exit order”
(prohibiting plaintiff from leaving Israel) would be
issued if plaintiff did not comply with its terms.
Plaintiff allegedly paid off his debt. However, in
July 2011, defendant requested that the Israeli State
Collections Office5 take action against plaintiff for the
value of the debt, including by prohibiting plaintiffs
right to receive or renew his driver’s license or
passport, implementing a prohibition on plaintiffs right
. to use a credit card, restraining plaintiffs use of his
bank accounts, and prohibiting plaintiffs right to
leave Israel. Besides serving plaintiffs attorney in
May 2000, defendant allegedly did not provide any
5 Plaintiff refers to the “Israeli State Collections Office” or the
“Collection Office” in his complaint, so the Court has adopted
plaintiffs terminology for the purpose of this Order. However,
defendant’s affidavit clarifies that this entity is actually the Law
Enforcement and Collection System Authority (or the “Registrar”),
which is an arm of the Israeli Ministry of Justice in charge of the
enforcement of judicial decisions and debt collection.

App.lOa

notice regarding the pending Collection Office action.
The Collection Office issued a stop-exit order against
plaintiff. 6
At that time, plaintiff lived in Turkey and was not
aware of the stop-exit order. When plaintiff visited
Israel in 2013, he was not permitted to leave the
country as a result of the 2011 decision. Plaintiff chal­
lenged the stop-exit order, claiming that he was a
resident of Turkey and paid the entire debt owed
under the settlement agreement. Defendant opposed.
The Collection Office ordered plaintiff to deposit with
it an amount of 100,000 NIS and obtain the signatures
of two guarantors for his debt in order to lift the stopexit order. Plaintiff appealed, and a magistrate judge
lifted the stop-exit order. However, following a series
of hearings and appeals, it appears that the Israeli
enforcement proceeding is still ongoing and defendant
is still attempting to collect plaintiffs allegedly out­
standing debt.
Plaintiff claims that on November 26, 2013 an
Israeli Baihffs Office determined that “Claims relating
to the identity of the persons responsible for delay and
damage caused to debtor [Benjamin Tagger] as a
result of this delay—these arguments will be heard in
the competent Court and not in the Bailiffs Office.”

6 As a result of the stop-exit order issued in July 2011, plaintiff
was forced to prepare, present, and file an updated questionnaire
and a waiver of confidentiality for documents concerning his
incomes and expenses; was “seen by the authorities and business
community as a capable person with the ability to avoid paying
his debts”; and was placed on an “Exit Control List” issued by the
Interior Ministry of Israel.

App.lla

Plaintiff filed the instant lawsuit with this Court in
response to this order.
Plaintiff claims that defendant’s actions in seeking
to collect the debt and a stop-exit order without notice
to plaintiff deprived him of his liberty. Plaintiff also
brings claims for defamation, conspiracy, negligence,
obstruction of justice, fraud, negligent infliction of
emotional distress, intentional infliction of emotional
distress, interference with contractual relationships,
and violations of human rights under the Universal
Declaration of Human Rights and the International
Covenant on Civil and Political Rights. Plaintiff seeks
$10,000,000 in damages, in addition to an award of
punitive damages, attorneys’ fees and costs, as well as
pre-and post-judgment interest.
DISCUSSION
Plaintiff invokes federal jurisdiction on the basis
of diversity of citizenship. Defendant moves to dismiss
for a lack of subject matter jurisdiction, improper
service, lack of personal jurisdiction, and forum non
conveniens. Defendant also moves to dismiss for fail­
ure to state a claim. Because the Court agrees with
defendant that it lacks subject matter jurisdiction to
hear this case, or that it would otherwise dismiss on
the basis of forum non conveniens, the Court does not
address defendant’s arguments concerning service of
process, personal jurisdiction, or failure to state a claim.
I.

Subject Matter Jurisdiction

Under Federal Rule of Civil Procedure 12(b)(1),
a district court must dismiss a complaint if the court
determines that it does not have subject matter
jurisdiction to hear the action. See Aurecchione v.

App.l2a

Schoolman Transp. Sys., Inc., 426 F.3d 635, 638 (2d Cir.
2005). In this analysis, the court must construe “all
ambiguities and draw[] all inferences” in the plain­
tiff s favor. Id.
Under § 1332(a)(2), “district courts shall have
original jurisdiction of all civil actions where the
matter in controversy exceeds the sum or value of
$75,000, exclusive of interest and costs, and is between
. . . citizens of a State and citizens or subjects of a
foreign state, except that the district courts shall not
have original jurisdiction under this subsection of an
action between citizens of a State and citizens or sub­
jects of a foreign state who are lawfully admitted for
permanent residence in the United States and are
domiciled in the same State.”
Plaintiff as the party invoking federal jurisdiction,
bears the burden of demonstrating that grounds for
diversity exist and that diversity is complete.” See
Herrick Co. v. SCS Commc’ns, Inc., 251 F.3d 315, 322-23
(2d Cir. 2001) (internal quotation marks and citations
omitted); see also Carden v. Arkoma Assocs., 494 U.S.
185, 187 (1990) (citing Strawbridge v. Curtiss, 3 Cranch
267, 2 L.Ed. 435 (1806)). Diversity is “complete” “if there
is no plaintiff and no defendant who are citizens of the
same State.” Wisconsin Dep’t of Corr. v. Schacht, 524
U.S. 381, 388 (1998).
A district court does not have diversity jurisdiction
over cases between aliens. Bayerische Landesbank,
New York Branch v. Aladdin Capital Mgmt. LLC,
692 F.3d 42, 49 (2d Cir. 2012). Because plaintiff and
defendant are each considered aliens under the
diversity analysis, the Court does not have jurisdiction
over this case and the complaint must be dismissed.
See Arbaugh v. Y&H Corp., 546 U.S. 500, 502 (2006)

App.l3a

C‘[W]hen a federal court concludes that it lacks sub­
ject-matter jurisdiction, the complaint must be dis­
missed in its entirety.”)
Defendant is an Israeli corporation with its prin­
cipal place of business in Israel. A corporation is a
citizen “of every State and foreign state by which it
has been incorporated and of the State or foreign state
where it has its principal place of business.” 28 U.S.C.
§ 1332(c)(1).
Defendant is therefore considered to be a citizen
of Israel. Plaintiff is a lawful permanent resident
domiciled in the state of New York. Generally, an indi­
vidual’s citizenship is determined by his domicile.
Palazzo ex rel. Deimage v. Corio, 232 F.3d 38, 42 (2d
Cir. 2000). However, the history of § 1332(a) and an
analysis of that history by courts within the Second
Circuit instruct that plaintiff is also considered to be
an alien for the purposes of diversity jurisdiction.
In 1988, Congress passed the Judicial Improve­
ments and Access to Justice Act, which amended
§ 1332(a). The 1988 amendment added the following
paragraph to the diversity statute: “For the purposes
of this section ... an alien admitted to the United
States for permanent residence shall be deemed a citizen
of the State in which such alien is domiciled.” Pub. L.
No. 100-702, § 203(a), 102 Stat. 4642, 4646. “The general
view was that the purpose of this amendment was to
remove federal jurisdiction from a case between a
citizen of a U.S. state and a permanent resident alien
of that same U.S. state because, in effect, such a
lawsuit was between two citizens of the same state.”
H.K Huilin Inti Trade Co. v. Kevin Multiline Polymer
Inc., 907 F. Supp. 2d 284, 286 (E.D.N.Y. 2012).

App.l4a

Courts disagreed, however, on whether the 1988
amendment simultaneously expanded federal juris­
diction by finding diversity in exactly the situation
presented in this case—where a permanent resident
alien and a non-resident alien were opposite of one
another. “[T]he majority of courts in the Second
Circuit did not read this section to so expand diversity
jurisdiction.” Id. Their reasoning was that “if a resident
alien were always ‘deemed’ to be a citizen of the state
she lived in, then one nonresident alien could bring
suit in federal court against one resident alien without
the presence of any United States citizens.” Id. at 287.
In light of this ambiguity, Congress passed the
Clarification Act in 2011, which removed the contested
“deeming” provision and inserted the current language
instructing that district courts do not have jurisdiction
over actions between citizens of a state and citizens of
a foreign state who are lawfully admitted for
permanent residence and are domiciled in that state.
Pub. L. No. 112-63,125 Stat. 758 § 101. Thus, Congress
clarified that it did not intend the 1988 amendment to
expand diversity jurisdiction to suits between non­
resident aliens and lawful permanent residents; it
intended only to eliminate diversity jurisdiction for
suits between a citizen of a state and a lawful
permanent resident domiciled in the same state.
Marcus v. Five JJewelers Precious Metals Industry
Ltd., Ill F. Supp. 2d 445 (S.D.N.Y. 2000), is instruc­
tive.7 There, the plaintiff was a citizen of Israel who
7 This is true even though Marcus was decided 11 years before
the Clarification Act was passed. As discussed above, the expansion
of federal jurisdiction to this set of facts was consistent with a
strict reading of the 1988 amended version of § 1332(a) (which
was operative in 2000). Marcus is one example of a court within

App.l5a

had been domiciled in New York since 1984 and became
a lawful permanent resident in 1985. The defendant
was an Israeli corporation with its principal place of
business in Israel. The court dismissed the complaint
for lack of subject matter jurisdiction, because “all
defendants and one plaintiff to the action [were]
aliens, [and] complete diversity [was] lacking.” Id. at 48.
Similarly, in this case, plaintiffs domicile is not
operative for the purposes of diversity jurisdiction.
Despite the fact that plaintiff has lawful permanent
resident status, plaintiff is a citizen of Israel and is
considered to be an alien. See Chan v. Chan, No. 13CV-3331, 2015 WL 4042165, at *2 (E.D.N.Y. July 1,
2015) (collecting cases) (“Concerning legal permanent
residents, diversity jurisdiction is not available between
a resident alien and a foreign alien.”). Because plaintiff
and defendant are both aliens, the Court lacks subject
matter jurisdiction over this action, and the complaint
is dismissed.
II.

Forum Non Conveniens

Even if the Court did have jurisdiction to hear
this action, the Court would grant defendant’s motion
to dismiss for forum non conveniens. There is little—
if any—connection between this Court and the events
giving rise to plaintiffs cause of action.

the Second Circuit, facing similar facts to the instant complaint,
that refused to read the 1988 amended version of § 1332(a) so
broadly, and dismissed a complaint over which it could have
technically exercised subject matter jurisdiction. The subsequent
passing of the Clarification Act instructs that the Marcus court’s
outcome—dismissing the complaint for lack of subject matter
jurisdiction—was correct.

App.l6a

“ [Fjorum non conveniens is a discretionary device
permitting a court in rare instances to ‘dismiss a claim
even if the court is a permissible venue with proper
jurisdiction over the claim.’” Wiwa v. Royal Dutch
Petroleum Co., 226 F.3d 88,100 (2d Cir. 2000) (quoting
PT United Can Co. v. Crown Cork & Seal Co., 138 F.3d
65, 73 (2d Cir. 1998)). The Second Circuit has articulated
a three-step process to determine whether forum non
conveniens is an appropriate grounds for dismissal of
a given case. First, a court must determine the degree
of deference owed to plaintiffs choice of forum. Pollux
Holding Ltd. v. Chase Manhattan Bank, 329 F.3d 64,
70 (2d Cir. 2003). Second, a court must determine
whether an adequate alternative forum exists. Id. Third,
a court must balance several factors involving the
interests of the parties and the public. Id.
In reviewing a motion to dismiss for forum non
conveniens, a court should assume that the plaintiffs
choice of forum will stand, unless the defendant meets
its burden of proving that analysis otherwise weighs
in its favor. See Iragorri v. United Techs. Corp., 274
F.3d 65, 71 (2d Cir. 2001). “[Ilfthe balance of conveni­
ences suggests that trial in the chosen forum would be
unnecessarily burdensome for the defendant or the
court, dismissal is proper.” Id. This is true even if the
plaintiff has filed suit in his home forum. Id.
With respect to the first step in the analysis, the
Court disagrees with defendant and finds that plaintiffs
choice of forum is entitled to deference. Although the
Second Circuit has specifically rejected “a rigid rule of
decision protecting U.S. citizen or resident plaintiffs
from dismissal for forum non conveniens,” Wiwa,
226 F.3d at 102, lawful permanent resident plaintiffs
remain subject to the same analysis as any other

App.l7a

plaintiff. Under that analysis, “the greater the plaintiffs
or the lawsuit’s bona fide connection to the United
States and to the forum of choice and the more it
appears that considerations of convenience favor the
conduct of the lawsuit in the United States, the more
difficult it will be for the defendant to gain dismissal
for forum non conveniens.” Iragorri, 274 F.3d at 72.
Here, plaintiff is a lawful permanent resident and
has a bona fide connection to the Eastern District of
New York (as he resides in Kings County). Plaintiff
also claims that he is a lung cancer patient® and suffers
from atrial fibrillation, is dependent on Medicare, and
has a nominal income, all of which complicate extensive
foreign travel. These facts certainly warrant deference
to plaintiffs choice of forum. However, this deference
is ultimately overcome by the fact that, besides plain­
tiffs lawful permanent resident status, this lawsuit
bears virtually no bona fide connection to the United
States.
Turning to the second step, defendant claims that
the Israeli court system presents an adequate alter­
native forum for the parties’ dispute.9 “An alternative
8 Plaintiff attached to his opposition a letter from his doctor
advising the Court that plaintiff had a resection surgery for lung
adenocarcinoma on February 28, 2017, which requires a follow
up appointment every six months for five years, and an annual
follow up after the fifth year. Plaintiff does not appear to be
undergoing any other regular cancer treatment.
9 Defendant does not make this argument, but there also exists
a second adequate alternative forum to hear this lawsuit—a New
York State court. Defendant contests that it is subject to personal
jurisdiction in New York, but that does not mean that a New
York court cannot competently hear this case. However, even if
a New York court is not an adequate alternative, an Israeli court
is. See e.g., Wilson v. ImageSat Int’l N.V., No. 07 CIV. 6176, 2008

App.l8a

forum is adequate if the defendants are amenable to
service of process there, and if it permits litigation of
the subject matter of the dispute.” Pollux, 329 F.3d at
75. Here, plaintiffs complaint demonstrates that the
Israeli court system is an adequate alternative. Plaintiff
has appeared before numerous Israeli courts and
agencies in connection with the underlying dispute
between the parties, and the Court has no reason to
think plaintiff cannot continue to litigate these issues
in that forum. Because defendant is an Israeli corpo­
ration with its principal place of business in Israel,
and because defendant has already appeared in the
underlying dispute, it is also clear that defendant is
amenable to suit in Israel. Finally, plaintiffs com­
plaint indicates that the stay-exit order was lifted, so
the Court has no reason to believe that plaintiff
cannot travel to Israel without risking his detention.
As for step three, the Court must balance several
factors to determine whether the case should be dis­
missed so that it can be brought before an Israeli
court. “[F]actors that argue against forum non
conveniens dismissal include the convenience of the
plaintiffs residence in relation to the chosen forum,
the availability of witnesses or evidence to the forum
WL 2851511, at *6 (S.D.N.Y. July 22, 2008), as amended (July
30, 2008) (finding Israel to be an adequate alternative forum
where most defendants consented to suit in Israel and plaintiff
was subject to jurisdiction of Israeli court); Sussman v. Bank of
Israel, 801 F. Supp. 1068, 1079 (S.D.N.Y. 1992) (finding Israel to
be an adequate alternative forum where Israeli law governed
propriety of defendants’ conduct, majority of witnesses resided in
Israel, plaintiff did not show that any evidence was located in the
United States, the majority of documents were in Hebrew, and
Israel had a greater public interest in the issues raised by the
complaint than the United States).

App.l9a

district, the defendant’s amenability to suit in the
forum district, the availability of appropriate legal
assistance, and other reasons relating to convenience
or expense.” Iragorri, 274 F.3d at 72. However, if it
appears that the plaintiff was motivated by forum­
shopping—namely to benefit from favorable local
laws, the generosity of juries, the plaintiffs popularity
or the defendant’s unpopularity in the region, or the
inconvenience and expense to the defendant—“the
easier it becomes for the defendant to succeed on a
forum non conveniens motion by showing that
convenience would be better served by litigating in
another country’s courts.” Id:
Besides the convenience factors mentioned in
step one, plaintiff claims that he could not obtain
counsel in Israel on a contingency fee basis, so he is
unable to, bring this lawsuit there. However, he is
before this Court pro se, so the Court is not persuaded
that a lack of counsel at plaintiffs preferred hourly
rate should prevent his case from being heard in a
different forum. In addition, it is likely that much of
the evidence relating to plaintiffs suit will involve
what the Israeli court system knew and what it based
its decisions on—and this evidence will, be much
easier to obtain in front of an Israeli court rather than
a United States court.
The facts underpinning this lawsuit and the evi­
dence necessary to litigate it weigh strongly in favor
of dismissing for forum non conveniens. The dispute
arises out of a 1999 contract between two Israeli
citizens, which was executed in Israel, involves an
ongoing Israeh debt collection process, and concerns a
parcel of real property located in Israel. Plaintiff claims
that the impetus for his complaint was an Israeli

■

App.20a

Bailiffs Office order indicating that his claims needed
to be heard in “the competent Court” (rather than by
the Bailiffs Office). This Court is likely not the court
that the Bailiffs Office envisioned; rather, plaintiffs
claims are properly heard before a competent Israeli
court.
CONCLUSION
Defendant’s [21] motion to dismiss is GRANTED.
SO ORDERED.

/si Brian M. Cogan
U.S.D.J.
Dated: Brooklyn, New York
September 12, 2018

App.21a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(JUNE 15, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
BENJAMIN TAGGER,
Plaintiff-Appellant,
v.
STRAUSS GROUP LTD.,
DefendantAppellee,
SABRA DIPPING CO., LLC.,
Defendant.
No. 18-3189
Appellant, Benjamin Tagger, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the request
for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.

App.22a
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk

App.23a

ISRAEL FRIENDSHIP, COMMERCE
AND NAVIGATION TREATY
(AUGUST 23, 1951)
Treaty, with Protocol and Exchange of Notes, between
the UNITED STATES OF AMERICA and ISRAEL
Signed at Washington August 23, 1951
Ratification advised by the Senate of the United
States of America, with a reservation, July 21, 1953
Ratified by the President of the United States of
America, subject to the said reservation, December 18,
1953
Ratified by Israel January 21, 1954
Ratifications exchanged at Washington March 4, 1954
Proclaimed by the President of the United States of
America May 6, 1954
Entered into force April 3, 1954
BY THE PRESIDENT OF THE UNITED STATES OF .
AMERICA
A PROCLAMATION
WHEREAS a treaty of friendship, commerce and
navigation between the United States of America and
Israel, together with a protocol and an exchange of
notes relating thereto, was signed at Washington
August 23, 1951;
WHEREAS the originals of the aforesaid treaty
and protocol in the English and Hebrew languages,
the original of the note signed by the Ambassador of
Israel and the authentic text of the note signed by the

App.24a

Secretary of State of the United States of America, both
in the English language, are word for word as follows:
TREATY OF FRIENDSHIP, COMMERCE
AND NAVIGATION BETWEEN THE
UNITED STATES OF AMERICA AND ISRAEL
The United States of America and Israel, desirous
of strengthening the bonds of peace and friendship
traditionally existing between them and of encouraging
closer economic and cultural relations between their
peoples, and being cognizant of the contributions which
may be made toward these ends by arrangements
encouraging mutually beneficial investments, promoting
mutually advantageous commercial and cultural
intercourse and otherwise establishing mutual rights
and privileges, have resolved to conclude a Treaty of
Friendship, Commerce and Navigation, based in general
upon the principles of national and of most-favorednation treatment unconditionally accorded, and for
that purpose have appointed as their Plenipotentiaries,
The President of the United States of America:
Dean Acheson, Secretary of State of the United
States of America, and
The President of the State of Israel:
Abba Eban, Ambassador Extraordinary and Pleni­
potentiary of Israel to the United States of America,
Who, having communicated to each other their
full powers found to be in due form, have agreed upon
the following Articles:

App.25a

Article I
Each Party shall at all times accord equitable
treatment to the persons, property, enterprises and
other interests of nationals and companies of the other
Party.
Article II
1. Nationals of either Party shall be permitted to
enter the territories of the other Party and to remain
therein: (a) for the purpose of carrying on trade
between the territories of the two Parties and for the
purpose of engaging in related commercial activities;
and (b) for other purposes subject to the laws relating ,
to the entry and sojourn of aliens.
2. Nationals of either Party, within the territories
of the other Party, shall be permitted: (a) to travel
therein freely, and to reside at places of their choice;
(b) to enjoy liberty of conscience; (c) to hold both
private and public religious services; (d) to bury their
dead according to their religious customs in suitable
and convenient places; (e) to gather and to transmit
material for dissemination to the public abroad; and
(f) to communicate with other persons inside and out­
side such territories by mail, telegraph and other
means open to general public use.
3. The provisions of the present Article shall be
subject to the right of either Party to apply measures
that are necessary to maintain public order and neces­
sary to protect the public health, morals and safety.

App.26a

Article III
1. Nationals of either Party within the territories
of the other Party shall be free from unlawful moles­
tations of every kind, and shall receive the most
constant protection and security, in no case less than
that required by international law.
2. If, within the territories of either Party, a
national of the other Party is accused of crime and
taken Into custody, the nearest diplomatic or consular
representative of his country shall on the demand of
such national be immediately notified. Such national
shall: (a) receive reasonable and humane treatment;
(b) be formally and immediately informed of the accu­
sations against him; (c) be brought to trial as promptly
as is consistent with the proper preparation of his
defense; and (d) enjoy all means reasonably necessary
to his defense, including the services of competent
counsel.
Article IV
1. Nationals of either Party shall be accorded
national treatment in the application of laws and
regulations within the territories of the other Party
that establish a pecuniary compensation, or other
benefit or service, on account of disease, injury or
death arising out of and in the course of employment
or due to the nature of employment.
2. In addition to the rights and privileges provided
in paragraph 1 of the present Article, nationals of
either Party shall, within the territories of the other
Party, be accorded national treatment in the apphcation
of laws and regulations establishing systems of
compulsory insurance, under which benefits are paid

App.27a

without an individual test of financial need: (a) against
loss of wages or earnings due to old age, unemploy­
ment, sickness or disability, or (b) against loss of
financial support due to the death of father, husband
or other persona on whom such support had depended.
Article V
1. Nationals and companies of either Party shall
be accorded national treatment and most-favorednation treatment with respect to access to the courts
of justice and to administrative tribunals and agencies
within the territories of the other Party, in all degrees
of jurisdiction, both In pursuit and in defense of their
rights. It is understood that companies of either Party
not engaged in activities within the territories of the
other Party shall enjoy such access therein without
any requirement of registration or domestication.
.

•

i

2. Contracts entered into between nationals and
companies of either Party and nationals and companies
of the other Party, that provide for the settlement by
arbitration of controversies, shall not be deemed un­
enforceable within the territories of such other Party
merely on the grounds that the place designated for the
arbitration proceedings is outside such territories or
that the nationality of one or more of the arbitrators
is not that of such other Party. No award duly rendered
pursuant to any such contract, and final and enforceable
under the laws of the place where rendered, shall be
deemed invalid or denied effective means of enforce­
ment within the territories of either Party merely on
the grounds that the place where such award was
rendered is outside such territories or that the nation­
ality of one or more of the arbitrators is not that of
such Party.

App.28a

Article VI
1. Property of nationals and companies of either
Party shall receive the most constant protection and
security within the territories of the other Party.
2. The dwellings, offices, warehouses, factories and
other premises of nationals and companies of either
Party located within the territories of the other Party
shall not be subject to unlawful entry or molestation.
Official searches and examinations of such premises
and their contents, when necessary, be made with
careful regard for the convenience of the occupants
and the conduct of business.
3. Property of nationals and companies of either
Party shall not be taken except for public purposes,
nor shall it be taken without the payment of just
compensation. Such compensation shall be in an
effectively realizable form and shall represent the
equivalent of the property taken; and adequate pro­
vision shall have been made at or prior to the time of
taking for the determination and prompt payment
thereof.
4. Neither Party shall take unreasonable or dis­
criminatory measures that would impair the legally
acquired rights or interests within its territories of
nationals and companies of the other Party in the
enterprises which they have established or in the
capital, skills, arts or technology which they have
supplied; nor shall either Party unreasonably impede
nationals and companies of the other Party from
obtaining on equitable terms the capital, skills, arts
and technology it needs for its economic development.
5. Nationals and companies of either Party shall
in no case be accorded, within the territories of the

App.29a

other Party, less than national treatment and mostfavored-nation treatment with respect to the matters
set forth in paragraphs 2 and 3 of the present Article.
Moreover, enterprises in which nationals and companies
of either Party have a controlling interest shall be
accorded, within the territories of the other Party, not
less than national treatment and most-favored-nation
treatment in all matters relating to the taking of
privately owned enterprises into public ownership
and to the placing of such enterprises under public
control.
Article VII
1. Nationals and companies of either Party shall
be accorded national treatment with respect to engaging
in all types of commercial, industrial, financial and
other activity for profit (business activities) within the
territories of the other Party, whether directly or by
agent or through the medium of any form of lawful
juridical entity. Accordingly, such nationals and
companies shall be permitted within such territories:
(a) to establish and maintain branches, agencies,
offices, factories and other establishments appropri­
ate to the conduct of their business; (b) to organize
companies under the general company laws of such
other Party, and to acquire majority interests in
companies of such other Party; and (c) to control and
manage enterprises which they have established or
acquired. Moreover, enterprises which they control,
whether in the form of individual proprietorships,
companies or otherwise, shall, in all that relates to the
conduct of the activities thereof, be accorded treat­
ment no less favorable than that accorded like enterprises controlled by nationals and companies of such
other Party.

App.30a

2. Each Party reserves the right to limit the extent
to which aliens may establish, acquire interests in, or
carry on enterprises engaged within its territories in
communications, air or water transport, banking, or
the exploitation of land or other natural resources.
However, neither Party shall deny to transportation,
communications and banking companies of the other
Party the right to maintain branches and agencies to
perform functions necessary for essentially interna­
tional operations in which they are permitted to engage.
3. The provisions of paragraph 1 shall not prevent
either Party from prescribing special formalities in
connection with the establishment of alien-controlled
enterprises within its territories; but such formalities
may not impair the substance of the rights set forth in
said paragraph.
4. Nationals and companies of either Party, as
well as enterprises controlled by such nationals and
companies, shall in any event be accorded most-favorednation treatment with reference to the matters treated
in the present Article.
Article VIII
1. Nationals and companies of either Party shall
be permitted to engage, within the territories of the
other Party, accountants and other technical experts,
executive personnel, attorneys, agents and other
specialists of their choice. Moreover, such nationals and
companies shall be permitted to engage accountants
and other technical experts regardless of the extent to
which they may have qualified for the practice of a
profession within the territories of such other Party,
for the particular purpose of making examinations,
audits and technical investigations for, and rendering

App.31a

reports to, such nationals and companies in connec­
tion with the planning and operation of their enter­
prises, and enterprises in which they have a financial
interest, within such territories.
2. Nationals of either Party shall not be barred
from practising the professions within the territories
of the other Party merely by reason of their alienage;
but they shall be permitted to engage in professional
activities therein upon compliance with the require­
ments regarding qualifications, residence and compe­
tence that are applicable to nationals of such other
Party.
3. Nationals and companies of either Party shall
be accorded national treatment and most-favored- '
nation treatment with respect to engaging in scientific,
educational, religious and philanthropic activities within
the territories of the other Party, and shall be accorded
the right to form associations for that purpose under
the laws of such other Party. Nothing in the present
Treaty shall be deemed to grant or imply any right to
engage in political activities.

Article IX
1. Nationals and companies of Israel shall be
accorded, within the territories of the United States of
America:
(a) national treatment with respect to leasing
land, buildings and other immovable property
appropriate to the conduct of commercial,
manufacturing, processing, financial, con­
struction, publishing, scientific, educational,
religious, philanthropic and professional activ-

App.32a

ities and for residential and mortuary pur­
poses and with respect to occupying and
using such property; and
(b) other rights in immovable property permitted
by the apphcable laws of the States, Territories
and possessions of the United States of
America.
2. Nationals and companies of the United States
of America shall be accorded, within the territories of
Israel, national treatment with respect to acquiring by
purchase, or otherwise, and with respect to owning,
occupying and using land, buildings and other immo­
vable property. However, in the case of any such national
domiciled in, or any such company constituted under
the laws of, any State, Territory or possession of the
United States of America that accords less than national
treatment to nationals and companies of Israel in this
respect, Israel shall not be obligated to accord treat­
ment more favorable in this respect than such State,
Territory or possession accords to nationals and
companies of Israel.
3. Nationals and companies of either Party shall
be accorded national treatment within the territories
of the other Party with respect to acquiring, by purchase
or any other method, and with respect to owning and
using movable property of all kinds, both tangible and
intangible. However, each Party may limit or prohibit:
(a) alien ownership of interests in enterprises carrying
on particular types of activity, but only to the extent
that this can be done without impairing the rights and
privileges secured by Article VII, paragraph 1, or by
other provisions of the present Treaty; and (b) alien
ownership of materials that are dangerous from the
standpoint of public safety.

App.33a

4. Nationals and companies of either Party shall
be permitted freely to dispose of property within
the territories of the other Party with respect to the
acquisition of which through testate or intestate suc­
cession their alienage has prevented them from
receiving national treatment, and they shall be per­
mitted a term of at least five years in which to effect
such disposition.
5. Nationals and companies of either Party shall
be accorded within the territories of the other Party
national treatment and most-favored-nation treatment
with respect to disposing of property of all kinds.
Article X
Nationals and companies of either Party shall be
accorded, within the territories of the other Party,
national treatment and most-favored-nation treatment
with respect to obtaining and maintaining patents of
invention, and with respect to rights in trade marks,
trade names, trade labels and industrial property of
all kinds.
Article XI
1. Nationals of either Party residing within the
territories of the other Party, and nationals and
companies of either Party engaged in trade or other
gainful pursuit or in scientific, educational, religious
or philanthropic activities within the territories of the
other Party, shall not be subject to the payment of taxes,
fees or charges imposed upon or applied to income,
capital, transactions, activities or any other object, or
to requirements with respect to the levy and collection
thereof, within the territories of such other Party,

App.34a

more burdensome than those borne by nationals and
companies of such other Party.
2. With respect to nationals of either Party who
are neither resident nor engaged in trade or other
gainful pursuit within the territories of the other
Party, and with respect to companies of either Party
which are not engaged in trade or other gainful
pursuit within the territories of the other Party, it
shall be the aim of such other Party to apply in general
the principle set forth in paragraph 1 of the present
Article.
3. Nationals and companies of either Party shall
in no case be subject, within the territories of the other
Party, to the payment of taxes, fees or charges
imposed upon or applied to income, capital, transac­
tions, activities or any other object, or to requirements
with respect to the levy and collection thereof, more
burdensome than those borne by nationals, residents
and companies of any third country.
4. In the case of companies of either Party engaged
in trade or other gainful pursuit within the territories
of the other Party, and in the case of nationals of
either Party engaged in trade or other gainful pursuit
within the territories of the other Party but not
resident therein, such other Party shall not impose or
apply any tax, fee or charge upon any income, capital
or other basis in excess of that reasonably allocable or
apportionable to its territories, nor grant deductions
and exemptions less than those reasonably allocable or
apportionable to its territories. A comparable rule shall
apply also in the case of companies organized and
operated exclusively for scientific, educational, reli­
gious or philanthropic purposes.

App.35a

5. Notwithstanding the provisions of the present
Article, each Party may: (a) accord specific advantages
as to taxes, fees and charges to nationals, residents
and companies of third countries on the basis of
reciprocity, if such advantages are similarly extended
to nationals, residents and companies of the other
Party; (b) accord to nationals, residents and companies
of a third country special advantages by virtue of an
agreement with such country for the avoidance of
double taxation or the mutual protection of revenue;
and (c) accord to its own nationals and to residents of
contiguous countries more favorable exemptions of a
personal nature with respect to income taxes and
inheritance taxes than are accorded to other non­
resident persons.
Article XII
1. The treatment prescribed in the present Article
shall apply to all forms of control of financial transac­
tions, including (a) limitations upon the availability of
media necessary to effect such transactions, (b) rates
of exchange, and (c) prohibitions, restrictions, delays,
taxes, charges and penalties on such transactions; and
shall apply whether a transaction takes place directly,
or through an intermediary in another country. As
used in the present Article, the term “financial trans­
actions” means all international payments and transfers
of funds effected through the medium of currencies,
securities, bank deposits, dealings in foreign exchange
or other financial arrangements, regardless of the
purpose or nature of such payments and transfers.
2. Financial transactions between the territories
of the two Parties shall be accorded by each Party
treatment no less favorable than that accorded to like

App.36a

transactions between the territories of that Party and
the territories of any third country. Each Party, how­
ever, reserves rights and obligations it may have
under the Articles of Agreement of the International
Monetary Fund, except as may be otherwise provided
in paragraphs b and 5 of the present Article.
3. Nationals and companies of either Party shall
be accorded by the other Party national treatment and
most-favored nation treatment with respect to financial
transactions between the territories of the two Parties
or between the territories of such other Party and of
any third country.
4. Nationals and companies of either Party shall
be permitted to withdraw freely from the territories
of the other Party, by obtaining exchange in the
currency of their own country,
(a) earnings, whether in the form of salaries,
interest, dividends, commissions, royalties,
payments for technical services or otherwise,
and funds for amortization of loans and
depreciation of direct investments and trans­
fers of the whole Or any portion of the com­
pensation referred to in paragraph 3 of
Article VI, and
(b) funds for capital transfers.
If more than one rate of exchange is in force, the
rate applicable to the withdrawals referred to in the
present paragraph shall be a rate which is specifically
approved by the International Monetary Fund for
such transactions or, in the absence of such specifically
approved rate, an effective rate which, inclusive of any
taxes or surcharges on exchange transfers, is just and
reasonable.

App.37a

5. Each Party shall retain the right in periods of
exchange stringency to apply: (i) exchange restrictions
to the extent necessary to assure the availability of
foreign exchange for payments for goods and services
essential to the health and welfare of its people, and
(ii) specific exchange restrictions approved by the
International Monetary Fund. In the event that either
Party applies exchange restrictions, it shall make rea­
sonable and specific provision for the withdrawals
referred to in paragraph 4 (a) above, together with such
provision for the withdrawals referred to in paragraph
4 (b) above as may be feasible, giving consideration
to special needs for other transactions.
6. In general, any control imposed by either
Party over financial transactions shall, subject to the
reservation set forth in paragraph 2 of the present
Article, be so administered as not to influence disad­
vantageous^ the competitive position of the com­
merce or investment of capital of the other Party in
comparison with the commerce or the investment of
capital of any third country.
Article XIII
Commercial travelers representing nationals and
companies of either Party engaged in business within
the territories thereof shall, upon their entry into and
departure from the territories of the other Party and
during their sojourn therein, be accorded most-favorednation treatment in respect of the customs and other
matters, including, subject to the exceptions in para­
graph 5 of Article XI, taxes and charges applicable
to them, their samples and the taking of orders.

App.38a

Article XIV
1. Each Party shall accord most-favored-nation
treatment to products of the other Party, from whatever
place and by whatever type of carrier arriving, and to
articles destined for exportation to the territories of
such other Party, by whatever route and by whatever
type of carrier, in all matters relating to customs
duties and other charges, and with respect to all other
regulations, requirements and formalities imposed on
or in connection with imports and exports.
2. Neither Party shall impose any prohibition or
restriction on the importation of any product of the
other Party, or on the exportation of any article to the
territories of the other Party, that:
(a) if imposed on sanitary or other customary
grounds of a noncommercial nature or in the
interest of preventing deceptive or unfair prac­
tices, arbitrarily discriminates in favor of the
importation of the like product of, or the
exportation of the like article to, any third
country;
(b) if imposed on other grounds, does not apply
equally to the importation of the like product
of, or the exportation of the like article to,
any third country; or
(c)

if a quantitative regulation involving allot­
ment to any third country with respect to an
article in which such other Party has an
Important interest, fails to afford to the
commerce of such other Party a share pro­
portionate to the amount by quantity or
value supplied by or to such other Party
during a previous representative period, due

App.39a

consideration being given to any special
factors affecting the trade in the article.
3. Nationals and companies of either Party shall
be accorded national treatment and most-favorednation treatment by the other Party with respect to
all matters relating to importation and exportation.
4. As used in the present Treaty the term “products
of’ means “articles the growth, produce or manufacture
of. The provisions of the present Article shall not
apply to advantages accorded by either Party:
(a) to products of its national fisheries;
(b) to adjacent countries in order to facilitate
frontier traffic; or
(c)

by virtue of a customs union of which either
Party, after consultation with the other
Party, may become a member.

Article XV
1. Each Party shall promptly publish laws, regu­
lations and rulings of general application pertaining
to rates of duty, taxes or other charges, to the
classification of articles for customs purposes, and to
requirements or restrictions on imports and exports or
the transfer of payments therefor, or affecting their
sale, distribution or use; and shall administer such
laws, regulations and rulings in a uniform, Impartial
and reasonable manner.
2. Each Party shall provide an appeals procedure
under which nationals and companies of the-other
Party, and Importers of products of such other Party,
shall be able to obtain prompt and impartial review,
and correction when warranted, of administrative

App.40a

action relating to customs matters, including the
imposition of fines and penalties, confiscations, and
rulings on questions of customs classification and
valuation by the administrative authorities. Penalties
imposed for infractions of the customs and shipping
laws and regulations shall be merely nominal in cases
resulting from clerical errors or when good faith can
be demonstrated.
Article XVI
1. Products of either Party shall be accorded, within
the territories of the other Party, national treatment
and most favored-nation treatment in all matters
affecting internal taxation, sale, distribution, storage
and use.
2. Articles produced by nationals and companies
of either Party within the territories of the other
Party, or by companies of the latter Party controlled
by such nationals and companies, shall be accorded
therein treatment no less favorable than that accorded
to like articles of national origin by whatever person
or company produced, in all matters affecting export­
ation, taxation, sale, distribution, storage and use.
Article XVII
1. Each Party undertakes (a) that enterprises
owned or controlled by its Government, and that
monopolies or agencies granted exclusive or special
privileges within its territories, shall make their
purchases and sales involving either imports or exports
affecting the commerce of the other Party solely in
accordance with commercial considerations, Including
price, quality, availability, marketability, transportation
and other conditions of purchase or sale; and (b) that

App.41a

the nationals, companies and commerce of such other
Party shall be afforded adequate opportunity, in accor­
dance with customary business practice, to compete
for participation in such purchases and sales.
2. Each Party shall accord to the nationals,
companies and commerce of the other Party fair and
equitable treatment, as compared with that accorded
to the nationals, companies and commerce of any third
country, with respect to: (a) the governmental purchase
of supplies, (b) the awarding of concessions and other
government contracts, and (c) the sale of any service
sold by the Government or by any monopoly or agency
granted exclusive or special privileges.
Article XVIII
1. The two Parties will, upon the request of either
of them, have discussions regarding the actual or
prospective existence of business practices which may
have harmful effects upon commerce between their
respective territories; and each will take such measures
as it deems appropriate with a view to eliminating
such undesirable practices. Business practices which
may have harmful effects are those which restrain
competition, limit access to markets or foster mono­
polistic control, and which are engaged in or made
effective by one or more private or public commercial
enterprises or by combination, agreement, or other
arrangement among such enterprises.
2. Rights and privileges with respect to commer­
cial, manufacturing and processing activities accorded,
by the provisions of the present Treaty, to privately
owned and controlled enterprises of either Party
within the territories of the other Party shall extend
to rights and privileges of an economic nature granted

App.42a

to publicly owned or controlled enterprises of such
other Party, in situations in which such publicly
owned or controlled enterprises operate in fact in
competition with privately owned and controlled enter­
prises. The preceding sentence shall not, however,
apply to subsidies granted to publicly owned or con­
trolled enterprises in connection with: (a) manufacturing
or processing goods for government use, or supplying
goods and services to the Government for government
Use; or (b) supplying, at prices substantially below
competitive prices, the needs of particular population
groups for essential goods and services not otherwise
practically obtainable by such groups.
3. No enterprise of either Party, including corpo­
rations, associations, and government agencies and
instrumentalities, which is publicly owned or control­
led shall, if it engages in commercial, manufacturing,
processing, shipping or other business activities within
the territories of the other Party, claim or enjoy, either
for itself or for its property, immunity therein from
taxation, suit, execution of judgment or other liability
to which privately owned and controlled enterprises
are. subject therein.
Article XIX
1. Between the territories of the two Parties there
shall be freedom of commerce and navigation.
2. Vessels under the flag of either Party, and
carrying the papers required by its law in proof of
nationality, shall be deemed to be vessels of that Party
both on the high seas and within the ports, places and
waters of the other Party.

App.43a

3. Vessels of either Party shall have liberty, on
equal terms with vessels of the other Party and on
equal terms with vessels of any third country, to come
with their cargoes to all ports, places and waters of such
other Party open to foreign commerce and navigation.
Such vessels and cargoes shall in all respects be
accorded national treatment and most-favored-nation
treatment within the ports, places and waters of such
other Party; but each Party may reserve exclusive
rights and privileges to its own vessels with respect to
the coasting trade, inland navigation and national
fisheries.
4. Vessels of either Party shall be accorded national
treatment and most-favored-nation treatment by the
other Party with respect to the right to carry all
articles that may be carried by vessel to or from the
territories of such other Party; and such articles shall
be accorded treatment no less favorable than that
accorded like articles carried in vessels of such other
Party, with respect to: (a) duties and charges of all
kinds, (b) the administration of the customs, and (c)
bounties, drawbacks and other privileges of this nature.
5. Vessels of either Party that are in distress
shall be permitted to take refuge in the nearest port
or haven of the other Party, and shall receive friendly
treatment and assistance, including such repairs, as
well as supplies and materials for repairs, as may be
necessary and available.
6. The term “vessels”, as used herein, means all
types of vessels, whether privately owned or operated,
or publicly owned or operated; but this term does not,
except with reference to paragraph 5 of the present
Article, include fishing vessels or vessels of war.

App.44a

Article XX
There shall be freedom of transit through the
territories of each Party by the routes most convenient
for international transit:
(a) for nationals of the other Party, together
with their baggage;
(b)

for other persons, together with their baggage,
en route to or from the territories of such
other Party; and

(c)

for articles of any origin en route to or from
the territories of such other Party.

Such persons and articles in transit shall be
exempt from transit, customs and other duties, and
from unreasonable charges and requirements; and
shall be free from unnecessary delays and restrictions.
They shall, however, be subject to measures referred
to in paragraph 3 of Article II, and to nondiscriminatory
regulations necessary to prevent abuse of the transit
privilege.
Article XXI
1. The present Treaty shall not preclude the
application of measures:
(a) regulating the importation or exportation of
gold or silver;
(b) relating to fissionable materials, to radioactive
byproducts of the utilization or processing
thereof or to materials that are the source of
fissionable materials,
(c)

regulating the production of or traffic in
arms, ammunition and implements of war,

App.45a

or traffic in other materials carried on directly
or indirectly for the purpose of supplying a
military establishment;
(d) necessary to fulfill the obligations of a Party
for the maintenance or restoration of
international peace and security, or necessary
to protect its essential security interests; and
(e)

denying to any company in the ownership or
direction of which nationals of any third
country or countries have directly or indirectly
a controlling interest, the advantages of the
present Treaty, except with respect to
recognition ofjuridical status and with respect
to access to courts.

2. The most-favored-nation provisions of the
present Treaty relating to the treatment of goods shall
not apply to: (a) advantages accorded by the United
States of America or its Territories and possessions to
one another, to the Republic of Cuba, to the Republic
of the Philippines, to the Trust Territory of the Pacific
Islands or to the Panama Canal Zone; or (b) advantages
which Israel may accord and which existed under
arrangements in force on May 13,1948.
3. The provisions of the present Treaty relating
to the treatment of goods shall not preclude action by
either Party which is required or specifically permitted
by the General Agreement on Tariffs and Trade [l]
during such time as such Party is a contracting party
to the General Agreement. Similarly, a contracting
party to said Agreement may withhold from countries
that have not acceded thereto particular advantages
reciprocally negotiated thereunder. In the event that,
pursuant to the foregoing sentence, either Party to the

App.46a

present Treaty withholds most-favored-nation treat­
ment from any product of the other Party, such other
Party may thereupon terminate Article XIV, para­
graph 11, of the present Treaty on giving six months
notice.
4. The present Treaty does not accord any rights
to engage in political activities.
5. Nationals of either Party admitted into the
territories of the other Party f or limited purposes
shall not enjoy rights to engage in gainful occupations
in contravention of limitations expressly imposed,
according to law, as a condition of their admittance.
Article XXII
1. The term “national treatment” means treatment
accorded within the territories of a Party upon terms
no less favorable than the treatment accorded therein,
in like situations, to nationals, companies, products,
vessels or other objects, as the case may be, of such
Party.
2. The term “most-favored-nation treatment”
means treatment accorded within the territories of a
Party upon terms no less favorable than the treatment
accorded therein, in like situations, to nationals,
companies, products, vessels or other objects, as the
case may be, of any third country. It is understood that
established concessions and regimes which antedate
the independence of Israel do not come within the
purview of Article VII, paragraph 4, and Article VIII,
paragraph 3.
1 Treaties and Other International Acts Series 1700; 61 Stat.,
pts. 5 and 6.

App.47a

3. As used in the present Treaty, the term “com­
panies” means corporations, partnerships, Companies
and other associations, whether or not with limited
liability and whether or not for pecuniary profit.
Companies constituted under the applicable laws and
regulations within the territories of either Party shall
be deemed companies, thereof and shall have their
juridical status recognized within the territories of the
other Party.
4. National treatment accorded under the pro­
visions of the present Treaty to companies of Israel
shall, in any State, Territory or possession of the United
States of America, be the treatment accorded therein
to companies created or organized in other States,
Territories, and possessions of the United States of
America.
Article XXIII
The territories to which the present Treaty expends
shall comprise all areas of land and water under the
sovereignty or authority of each of the Parties, other
than the Panama Canal Zone and, except to the extent
that the President of the United States of America
shall otherwise determine, the Trust Territory of the
Pacific Islands.
Article XXIV
1. Each Party shall accord sympathetic consider­
ation to, and shall afford adequate opportunity for
consultation regarding, such representations as the
other Party may make with respect to any matter
affecting the operation of the present Treaty.

App.48a

2. Any dispute between the Parties as to the
interpretation or application of the present Treaty,
not satisfactorily adjusted by diplomacy, shall be sub­
mitted to the International Court of Justice, unless the
Parties agree to settlement by some other pacific means.
Article XXV
1. The present Treaty shall be ratified, and the
ratifications thereof shall be exchanged at Washington
as soon as possible.
2. The present Treaty shall enter into force on
the thirtieth day following the day of exchange of
ratifications. It shall remain in force for ten years and
shall continue in force thereafter until terminated as
provided herein.
3. Either Party may, by giving one year’s written
notice to the other Party, terminate the present Treaty
at the end of the initial ten-year period or at any time
thereafter.
IN WITNESS WHEREOF the respective Pleni­
potentiaries have signed the present Treaty and have
affixed hereunto their seals.
DONE in duplicate, in the English and Hebrew
languages, both equally authentic, at Washington,
this twenty-third day of August, one thousand nine
hundred fifty-one, which corresponds to the twentyfirst day of Av, five thousand seven hundred and eleven.
For the United States of America:
Dean Acheson [Seall

App.49a

For Israel:
Abba Eban [SEALl
Ambassador
PROTOCOL
At the time of signing the Treaty of Friendship,
Commerce and Navigation between the United States
of America and Israel the undersigned Plenipoten­
tiaries, duly authorized by their respective Govern­
ments, have further agreed on the following provisions,
which shall be considered integral parts of the aforesaid
Treaty:
1. The term “access” as used in Article V, para­
graph 1, comprehends, among other things, legal aid
and security for costs and judgment.
2. The first sentence of Article V, paragraph 1,
shall not obligate either Party with respect to
entertaining an action where a decree of dissolution of
marriage is sought by an alien. For this purpose,
decree of dissolution of marriage includes a decree of
divorce and a decree of nullity.
3. The provisions of Article VI, paragraph 3, pro­
viding for the payment of compensation shall extend
to interests held directly or indirectly by nationals
and companies of either Party in property which is
taken within the territories of the other Party.
4. With reference to Article VII, paragraph 4, either
Party may require that rights to engage in mining on
the public domain shall be dependent on reciprocity.
5. It is understood that the provisions of Article
IX do not affect the disposition by either Party of its
public domain.

App.50a

6. Either Party, in adopting such measures of
exchange control as may be necessary from time to
time to deal with a stringency of foreign exchange,
may depart from the provisions of paragraphs 2 and 6
of Article XII. However, such measures shall depart no
more than necessary from the provisions of said para­
graphs and shall be conformable with a policy designed
to promote the maximum development of nondiscriminatory foreign trade and to expedite the attainment
both of a balance of payments position and of reserves
of foreign exchange which will obviate the necessity of
such measures. A Party may also, notwithstanding
Article XIV, paragraph 2(b) and (c), apply quantitative
restrictions on imports that have effect equivalent to
exchange restrictions applied pursuant to the preceding
sentences of the present provision. A Party resorting
to the present provision, or to paragraph 5 of Article
XII, shall consult with the other Party at any time,
upon request, as to the need for and application of
restrictions thereunder, and shall give the other Party
as much advance notice as practicable of prospective
new or substantially increased resort thereto.
7. The provisions of Article XVII, paragraph 2(b)
and (c) of Article XIX, paragraph 4, shall not apply to
postal services.
8. The provisions of Article XX, (b) and (c), shall
not obligate either Party with respect to nationals and
products of any country which does not permit transit
through its territories or nationals and products of such
Party.
9. The provisions of Article XXI, paragraph 2,
shall apply in the case of Puerto Rico regardless of any
change that may take place in its political status.

App.51a

. 10. Article XXIII does not apply to territories
under the authority of either Party solely as a military
base or by reason of temporary military occupation,
IN WITNESS WHEREOF the respective Pleni­
potentiaries have signed this Protocol and have
affixed hereunto their seals.
DONE in duplicate, in the English and Hebrew
languages, both equally authentic, at Washington,
this twenty-third day of August, one thousand nine
hundred fifty-one, which corresponds to the twenty-first
day of Av, five thousand seven hundred and eleven.
For the United States of America:
Dean Acheson [Seal!
For Israel:
Abba Eban [SEAL!
The Secretary of State to the Israeli Ambassador
Department of State
Washington
August 23, 1951

App.52a

Excellency:
I have the honor to refer to the Treaty of Friend­
ship, Commerce and Navigation between the United
States of America and Israel signed at Washington on
August 23, 1951, and to confirm the understanding
reached during the negotiation thereof that, for the
purposes of the aforesaid Treaty, the United States of
America is prepared, pending enactment of nationality
legislation by Israel, to consider persons holding or
entitled to hold Israel passports or traveling documents
as nationals of Israel.
It is understood also that the foregoing is without
reference to any questions of dual nationality.
■v.

Accept, Excellency, the renewed assurances of my
highest consideration.
Dean Acheson
His Excellency
Abba Eban
Ambassador of Israel
The Israeli Ambassador to the Secretary of State
Embassy of Israel
Washington, D.C.
August 23, 1951

Excellency:
I have the honor to refer to the Treaty of Friend­
ship, Commerce and Navigation between Israel and
the United States of America, signed at Washington

App.53a

on August 23, 1951, and to confirm the understanding
reached during the negotiation thereof that, for the
purposes of the aforesaid Treaty, the United States of
America is prepared, pending enactment, of nationality
legislation by Israel, to consider persons holding or
entitled to hold Israel passports or traveling documents
as nationals of Israel; and further, it is understood
that the foregoing is without reference to any questions
of dual nationality.
Accept, Excellency, the renewed assurances of my
highest consideration.
Abba Eban
His Excellency
Dean G. Acheson
Secretary of State,
Washington, D. C.

[

]

WHEREAS the Senate of the United States of
America by their resolution of July 21, 1953, twothirds of the Senators present concurring therein, did
advise and consent to the ratification of the aforesaid
treaty, together with the aforesaid protocol and
exchange of notes relating thereto, subject to a
reservation as follows:
“Article VIII, paragraph 2, shall not extend to pro­
fessions which, because they involve the performance
of functions in a Public capacity or in the interest of
public health and safety, are state-licensed and
reserved by statute or constitution exclusively to
citizens of the country, and no most-favored-nation

App.54a

clause in the said treaty shall apply to such profes­
sions.”;
WHEREAS the text of the aforesaid reservation
was communicated by the Government of the United
States of America to the Government of Israel by a
note dated July 28, 1953 and was accepted by the Gov­
ernment of Israel by a note dated December 3, 1953;
WHEREAS the aforesaid treaty, together with the
protocol and the exchange of notes relating thereto, was
ratified by the President of the United States of America
on December 18, 1953, in pursuance of the aforesaid
advice and consent of the Senate and subject to the
aforesaid reservation, and was ratified on the part of
the Government of Israel;
WHEREAS the respective instruments of ratifi­
cation, as aforesaid, were exchanged at, Washington
on March 4, 1954, and a protocol of exchange, in the
English and Hebrew languages, was signed at that
place and on that date by the respective Plenipoten­
tiaries of the United States of America and Israel, the
said protocol of exchange indicating that the aforesaid
reservation had been made and accepted;
AND WHEREAS it is provided in Article XXV of
the aforesaid treaty that the treaty shall enter into
force on the thirtieth day following the day of exchange
of ratifications and in the aforesaid protocol of August
23, 1951 that the provisions thereof shall be considered
integral parts of the treaty, and the aforesaid notes
are deemed to be an integral part of the treaty;
Now, THEREFORE, be it known that I, Dwight P.
Eisenhower, President of the United States of America,
do hereby proclaim and make public the aforesaid
treaty, the aforesaid protocol of August 23, 1951, and

App.55a

the aforesaid exchange of notes to the end that the same
and every article and clause thereof may be observed
and fulfilled in good faith on and after April 3, 1954,
by the United States of America and by the citizens of
the United States of America and all other persons
subject to the jurisdiction thereof, subject to the afore­
said reservation.
IN TESTIMONY WHEREOF, I have hereunto
set my hand and caused the seal of the United States
of America to be affixed.
DONE at the city of Washington this sixth day of
May in the year of our Lord one thousand nine
hundred fifty-four and of the Independence of the
United States of America the one hundred seventyeighth.

Dwight D. Eisenhower
By the President:
John Foster Dulles
Secretary of State

